  Review of PWBA’s Enforcement
              and
       Training Programs




           U.S. Department of Labor
           Office of Inspector General
Office of Analysis, Complaints and Evaluations




         Report No. 2E-12-121-0001
              March 24, 2000
                                                        Table of Contents


Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

           Effectiveness of PWBA’s Enforcement Program Based
           on Performance: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

           Adequacy of PWBA Training Programs in Support of the Enforcement
           Program: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                      Background To Evaluation of Training
                      for Investigative Staff . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                      Review of Position Descriptions and Position Standards . . . . . . . . . 11

                      Training Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                                 Training Courses Developed by the Agency . . . . . . . . . . . . . . . 14

                                 Programs of Continuing Education . . . . . . . . . . . . . . . . . . . . . . . 18




                                                                       1
                               On-the-Job Training and Individual Development . . . . . . . . . . 21

Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

Appendix
A.   Agency Response

Executive Summary

The Office of Inspector General conducted this review in response to an anonymous letter
received from investigators and auditors of the Pension and Welfare Benefits
Administration (PWBA). The complaint alleges that GS-1801 Investigators and GS-511
Auditors in PWBA cannot effectively investigate criminal activities because they do not
possess the proper criminal investigative training and law enforcement powers afforded to
GS-1811 Criminal Investigators/Special Agents.

In FY 1998, 97.6% of PWBA’s opened cases were civil cases, while 2.4% were criminal
cases. Therefore, rather than limit the scope of the evaluation to criminal enforcement, we
broadened the scope to assess the effectiveness of PWBA’s entire enforcement program.


Our assessment focused on two areas: (1) the effectiveness of PWBA’s enforcement
program based on the agency’s performance data; and (2) the adequacy of the training
programs that support the enforcement program.

Our findings are:

          Effectiveness of PWBA’s Enforcement Program Based on Performance:

          Based on the PWBA’s FY 1998 and 1999 performance goals and results, our
          evaluation of the effectiveness of PWBA’s enforcement program shows the
          enforcement program is effective.

          Adequacy of PWBA Training Programs in Support of the Enforcement
          Program:




                                                                    2
       Overall, we concluded that PWBA’s training initiatives to provide and maintain a
       level of proficiency for its investigators and auditors are appropriate for the
       enforcement of the Employee Retirement Income Security Act of 1974 (ERISA).

During FY 1998, PWBA established baseline enforcement measures in accordance with
the Government Performance and Results Act of 1993 (GPRA). FY 1999 was the first year
that GPRA goals were required to be implemented. In examining the agency’s
performance data for FYs 1998 and 1999, we found that all performance measures
relating to PWBA’s enforcement program have been exceeded.

In examining the agency’s training programs that support the enforcement program we
found that PWBA provides a series of in-house training programs for investigators, and
offers numerous opportunities for continuing education, sponsored by the agency.

We interviewed representatives from PWBA’s Office of Enforcement, the Office of
Program Planning, Evaluation, and Management, and a sampling of investigators and
auditors. We learned that the agency’s training commitment consists of four major
components: (1) training courses developed by the agency; (2) programs of continuing
education; (3) on-the-job training; and (4) individual development opportunities.

Interviews with the investigators and auditors revealed a general satisfaction regarding
adequacy of training programs in support of the enforcement program. However, we
learned of several areas of concern among the interviewees, which include: (1) a need for
a more structured approach to training and mentoring new investigators in five of the ten
PWBA regions; (2) a need to survey individual employee training needs of investigators
and to incorporate those needs in the annual training plans; and (3) a need for more
advanced annual planning for sending investigators to the Federal Law Enforcement
Training Center (FLETC) training programs available to the agency.

In examining the job descriptions and performance standards for investigators and
auditors, we found three essential requirements in common in both positions, at all levels.
We were able to identify associated training programs for all of the position requirements.

For the most part we found that PWBA has an established, well planned training initiative
to support their investigative personnel. Our recommendations should serve to enhance
the existing training programs. They are:

              •      Ensure that new employee training/mentoring programs are available
                     for new investigators and auditors in each of the ten Regions.
                     Complete the updating of the Self Study Guides, and incorporate




                                             3
                    them into the training/mentoring programs by the end of FY 2000.

             •      Conduct an individual employee survey of the training needs of
                    investigators and auditors during FY 2000. The survey should
                    minimally address these training needs and topics: (1) a refresher
                    course for GS-12/GS-13 investigators, including updated information
                    on criminal techniques and employee benefit plan accounting; (2)
                    more advanced interviewing techniques, incorporated into one of the
                    existing internal training classes;
                    (3) advanced computer training; (4) training on other federal
                    regulations, such as the IRS code; and (5) writing skills.

             •      Following PWBA’s review and analysis of the results of the individual
                    employee survey described above, training needs should be
                    prioritized in order of their importance. The agency should address
                    the development and implementation of such training needs in the FY
                    2001 Program Operating Plan.

             •      The agency should review its Financial Institutions class for its
                    applicability to case work, timing of scheduling of employees for the
                    class, and contents.

             •      Each regional office should maintain a roster of individuals that can
                    best make use of the various FLETC courses offered during the fiscal
                    year. As slots are then made available to the regional offices, the
                    appropriate candidates could promptly be selected to attend the
                    course offered.

Agency Response and OIG Conclusion

The agency’s response to the OIG’s official draft report agrees with the recommendations
made. The recommendations have been resolved and will be considered closed upon
OIG’s receipt of the documentation detailed in the recommendations section of the report.
The agency’s complete response can be found in Appendix A.




                                            4
Purpose

An anonymous letter was received from investigators and auditors of the Pension and
Welfare Benefits Administration (PWBA) alleging that GS-1801 Investigators and GS-511
Auditors in PWBA cannot effectively investigate criminal activities because they do not
possess the proper criminal investigative training and law enforcement powers afforded to
GS-1811 Criminal Investigators/Special Agents.

In FY 98, 97.6% of PWBA’s opened cases were civil cases, while 2.4% were criminal
cases. Therefore, rather than limit the scope of the evaluation to criminal enforcement, we
have broadened the scope to assess the effectiveness of PWBA’s entire enforcement
program.

Our assessment focused on two areas: (1) the effectiveness of PWBA’s enforcement
program based on the agency’s performance data; and (2) the adequacy of the training
programs that support the enforcement program.

The evaluation is being conducted in support of PWBA’s strategic goal #4--to deter and
correct violations of the relevant statutes. It also assists the Department of Labor (DOL) in
meeting its strategic goal #2--to promote the economic security of workers and families
through a secure workforce.

Background

PWBA administers and enforces the fiduciary, reporting and disclosure provisions of Title I
of the Employee Retirement Income Security Act of 1974 (ERISA), which were enacted to
address public concerns–that funds of private pension plans were being mismanaged and
abused.

Administration of ERISA is divided among the Labor Department, the Internal Revenue
Service of the Department of the Treasury (IRS), and the Pension Benefit Guaranty
Corporation (PBGC). Title I, which contains rules for reporting and disclosure, vesting,
participation, funding, fiduciary conduct, and civil enforcement, is administered by PWBA.
Title II of ERISA is administered by the IRS and parallels many of the Title I rules. Title III
addresses jurisdictional matters and coordination of enforcement and regulatory activities
by the Labor Department and the IRS. Title IV covers the insurance of defined benefit
pension plans and is administered by the PBGC.




                                               5
PWBA’s Office of Enforcement (OE) has the responsibility for oversight of planning and
implementation of the investigative programs of the agency. There are fifteen PWBA field
offices, organized into ten Regional Offices (located in Boston, New York, Philadelphia,
Atlanta, Cincinnati, Chicago, Dallas, Kansas City, Los Angeles, and San Francisco) and
five District Offices, each of which operates under the direct supervision of a Regional
Office (located in Miami, Detroit, St. Louis, Seattle, and Washington, D.C.). Each region is
headed by a Regional Director, who reports to the Deputy Assistant Secretary for Program
Operations through the Director of Enforcement.

Title I of ERISA imposes substantial law enforcement responsibilities on the Department of
Labor; additional law enforcement responsibilities regarding employee benefit plans are
imposed by Federal criminal laws. The goal of these statutes is to assure the integrity and
fairness of the private employee benefit plan system in the United States.

PWBA’s Office of Enforcement promotes the protection of pension and welfare benefits
under ERISA by ensuring a strong and effective national and field office enforcement
program through policy formulation, project identification and program planning, guidance
development and implementation, field liaison, and field and project evaluation.
Investigations to detect and correct violations of Title I of ERISA and related criminal laws
are conducted by the investigative staff in PWBA’s field offices.

The Office of Enforcement is organized into three components: the Division of Field
Operations, which coordinates national civil enforcement policy with PWBA field offices
and various governmental agencies; the Division of Enforcement Support, which oversees
national targeting efforts and provides technical and administrative assistance to PWBA
field offices; and the Criminal Coordinator, who coordinates national criminal enforcement
policy with PWBA field offices and with other governmental agencies such as the
Department of Justice.

PWBA receives legal support for its investigations primarily from Regional Solicitors'
(RSOL) offices, and secondarily from the Plan Benefits Security Division (PBSD) in the
National Solicitor's Office. The RSOLs provide legal services and support during the
investigative phases and then litigate routine civil cases, thereby freeing PBSD to
concentrate on those cases that have higher profiles, are policy sensitive, or involve novel
legal theories.

Training for the agency is organized through a National Training Coordinator, in PWBA’s
Office of Program Planning, Evaluation, and Management, with primary responsibility for
identifying the overall training needs of the agency.




                                              6
Methodology

To gather background information, we reviewed the DOL and PWBA internet web sites
and the PWBA Enforcement Manual. We then began our current review. We started with
the examination of PWBA’s performance data which relates to its enforcement program.
Subsequently, we reviewed information pertaining to training for PWBA’s investigators and
auditors.

To determine the effectiveness of PWBA’s enforcement program based on the agency’s
performance data, we reviewed PWBA’s performance goals and results related to its
enforcement program. Performance goals were derived from the agency’s Strategic Plan
(FY 1997 – FY 2002). Performance results were provided by PWBA’s enforcement office.
We did not independently verify the validity of the data provided by the agency.

We eliminated FY 1997 as a review year because PWBA program accomplishments were
tracked differently prior to their Government Performance and Results Act of 1993
(GPRA) baseline implementation in FY 1998.

To determine the adequacy of the training programs that support the enforcement
program, we interviewed management staff from the National Office, obtained agency data
related to all training programs available to investigators and auditors, reviewed
applicable position descriptions and standards, reviewed the draft FY 2000 Program
Operating Plan Guidance on training initiatives, and interviewed a sampling of
investigators and auditors.

To develop the judgmental sample of interviews, we reviewed two lists of information on
investigative personnel provided by the agency. One list was a personnel roster by
regional and district offices. The second list included information on length of service,
education, and training provided within PWBA and at the Federal Law Enforcement
Training Center. We decided on a 20% sampling from both the GS-511 Auditor and GS-
1801 Investigative series, for all levels. Our use of the term “investigator” includes
employees from both the investigator and auditor series. We approximated the total
number of investigative employees to be interviewed at 70. Because of the logistical and
budgetary constraints involved in interviewing employees in all regions, it was
decided that telephone interviews would provide the most expeditious and cost-saving
means of interviewing employees.


We did not interview PWBA management from Regional offices, as our interview focus




                                            7
was on the employees’ training experiences. However, we did review the PWBA FY2000
Program Operating Plan draft proposals for training in each Region.

We conducted our review in accordance with the Quality Standards for Inspections
published by the President’s Council on Integrity and Efficiency.

Findings

I.    Effectiveness of PWBA’s Enforcement Program Based on Performance:

      Finding: Based on the PWBA’s FY 1998 and 1999 performance goals and
      results, our evaluation of the effectiveness of PWBA’s enforcement program shows
      the enforcement program is effective.

      We examined PWBA’s measures and results for its Enforcement Program for fiscal
      years 1998 and 1999.

      Performance goals associated with the enforcement program are aligned with
      department goals in the following way:

             •      The PWBA mission and its functions support the DOL’s Strategic
                    Goal 2, “a secure workforce-promote the economic security of
                    workers and families.”
             •      The PWBA mission also supports the first two of the three
                    corresponding DOL outcome goals, “increase compliance with
                    worker protection laws,” and “protect worker benefits.”
             •      The PWBA’s four goals in support of the Department’s plan are: (1)
                    deter and correct violations of the relevant statutes; (2) facilitate
                    compliance; (3) assist workers in understanding their rights and
                    protecting their benefits; and (4) encourage the growth of
                    employment-based benefits.
             •      The performance goals for the enforcement program are aligned with
                    the PWBA strategic goal “to deter and correct violations of the
                    relevant statutes.”

      During FY 1998, as part of the implementation of the Government Performance and
      Results Act (GPRA), PWBA updated its original 5-year strategic plan and
      established the agency’s FY 1999 performance plan. Also during FY 1998, PWBA,
      as part of a departmental level working group, developed and updated




                                           8
         the Department’s strategic and annual performance plans. PWBA’s goals and
         objectives were developed in terms of outcomes and outputs corresponding to the
         mission of the agency.

         FY 1999 was the first year that agencies were required to track the specific GPRA
         performance measures. However, during FY 1998 PWBA determined baselines
         for certain measures. Below is a chart which shows (1) the original FY 1998 GPRA
         goals related to PWBA’s enforcement program, with year-end results, and (2) the
         revised enforcement measures for FY 1999 with results:

                             PWBA Enforcement Goals & Results
                                   FYs 1998 and 1999
    PWBA STRATEGIC            PWBA PERFORMANCE GOAL/                     FY 1998            FY 1999
        GOAL                       ENFORCEMENT                          Goal/Actual        Goal/Actual
    Deter and correct      Increase by 2.5% per year the number of      Goal:   317       Goal: 537
    violations of the      fiduciary investigations closed where plan   Actual: 642       Actual: 958
    relevant statutes.     assets are restored.

                           Increase by 2.5% per year the number of      Goal:     180     Goal: 241
                           fiduciary investigations closed where        Actual:   256     Actual: 389
                           prohibited transactions are reversed.

                           Increase by 2.5% per year the number of      Goal:     516     Goal: 610
                           fiduciary investigations closed where plan   Actual:   725     Actual: 633
                           assets are protected from mismanage-
                           ment and risk of future loss is reduced.

                           Increase by .25% per year the ratio of       Goal: 14.83%      Goal: 15.92%
                           closed civil cases with corrected            Actual: 21.02%    Actual: 36.49%
                           violations to total civil cases closed. 1

                           Increase by .25% per year the ratio of       Goal: 40.25%      Goal: 42.66%
                           criminal cases referred for prosecution to   Actual: 48.67%    Actual: 42.68%
                           United States Attorneys or to State
                           prosecutors to total criminal cases.




1
 Those cases with corrected violations are cases in which PWBA obtained any type of monetary relief (plan
assets restored, prohibited transactions reversed), appointment or removal of trustees, correction of
administrative practices, or correction of diversification practices.




                                                      9
      Both the baseline and revised enforcement performance objectives were exceeded
      in FYs 1998 and 1999. PWBA utilized a variety of strategies to exceed the
      enforcement objectives, including:

                C   Targeting and investigating violations where plan participants are
                    most susceptible to actual loss of benefits, or "populations" of plan
                    participants who are potentially exposed to the greatest risk of falling
                    victim to unlawful conduct.
                C   Identifying civil violations and achieving appropriate correction in the
                    least obtrusive and most cost-effective manner.
                C   Investigating cases where meaningful monetary or injunctive relief
                    could be obtained.
                C   Referring evidence of criminal activity, whether or not pursued by
                    PWBA, to the appropriate United States Attorney's office or to the
                    appropriate state's attorney's office.
                C   Correcting abusive practices by service providers and financial
                    institutions who offer a variety of administrative, financial, consulting,
                    and other types of services to employee benefit plans enabling
                    PWBA to leverage its enforcement resources.

II.   Adequacy of PWBA Training Programs in Support of the Enforcement
      Program:

      Finding: Overall, we concluded that PWBA’s training initiatives to provide and
      maintain a level of proficiency for its investigators and auditors are appropriate for
      the enforcement of the Employee Retirement Income Security Act of 1974 (ERISA).

      Background To Evaluation of Training for Investigative Staff

      PWBA’s Office of Enforcement has responsibility for oversight of planning and
      implementation of the investigative programs of the agency. During the second
      quarter of FY 1999, PWBA had an investigative staff of 314 employees, consisting
      of investigators (GS-5 through GS-12), senior investigators (GS-13) and auditors
      (GS-07 through GS-12). Through interviews with PWBA management staff at the
      headquarters location, we learned that auditors and investigators are used
      interchangeably to perform investigations for PWBA. The agency recruits under the
      GS-1801 General Inspection, Investigation and Compliance Series, and the GS-
      511 Auditor series, to obtain a more diverse pool of applicants. Some enforcement
      activity centers on points of law or specific problems with the application of
      precedents, statutory language, and court decisions. These types of investigations




                                             10
do not require the full professional skills of an auditor. In other cases, complex and
significant auditing issues do arise. The need for flexibility is met by PWBA
managers making an analysis of the nature and level of work available in the
Regional and District offices. Then they select either the investigator or auditor
series as their recruitment vehicles based on the needs of the office.

Cases may be opened for investigation for a variety of reasons. Information
provided by plan participants and beneficiaries is an important source for
developing investigations. Annual Returns/Reports of Employee Benefit Plans
(Form 5500 Returns) provide financial and operation information. National and
regional initiatives also impact the enforcement program. Supervisory personnel in
the regional or district offices assign cases based on the experience and skills of
the employees available and the complexity of the case.

If an investigation reveals a violation of the civil provisions of ERISA, PWBA takes
action to correct the violation. It is the agency’s policy to promote
voluntary compliance with ERISA whenever possible. PWBA investigators actively
seek to allow plans to make corrections of violations prior to referring cases for
litigation. When voluntary compliance is not achieved, PWBA may refer a case to
the solicitor for litigation.

Investigators also conduct criminal investigations under ERISA as well as Title 18 of
the U.S. Criminal Code, regarding violations of employee benefit plans such as
embezzlement, kickbacks, and false statements. Prosecution of these criminal
violations are handled by U.S. Attorneys’ offices.

Decisions regarding whether to seek criminal action turn on a number of factors,
including: (1) the egregiousness and magnitude of the violations; (2) the desirability
and likelihood of incarceration both as a deterrent and as a punishment; and (3)
whether the case involves a prior ERISA violator.

Review of Position Descriptions and Position Standards

We reviewed position descriptions for the GS-511 Auditor series and the GS-1801
Investigative series to determine the nature of the work performed and the
knowledge, skills and abilities (KSAs) required to perform that work. Our review
shows three essential KSA requirements in common in both series, at all levels.
These KSAs are:

       (1)    Knowledge of the ERISA act and related federal regulations as they




                                       11
              pertain to the pension/benefit industry in the private sector;
       (2)    Knowledge of auditing practices and principles, and skill in
              conducting financial analyses sufficient to reconstruct transactions
              and identify fiduciary breaches; and
       (3)    Ability to plan, organize and conduct an investigation or examination,
              including ability to work effectively with persons of diverse
              backgrounds and with potentially conflicting interests.

Since these KSAs are essential at any level, these are the KSAs that were
analyzed in relationship to the training offered by PWBA. Implicit in these KSAs is
an ability to plan, coordinate, conduct and report on an investigation or examination.
Knowledge of investigative techniques and methods, in addition to established
interpersonal skills, are required for the purpose of determining compliance with
ERISA regulations. Therefore, each of these requirements was examined against
the curriculum of the training programs offered by PWBA.

       (1)    We determined that training on the ERISA act and related federal
              regulations is provided through different vehicles: (1) Self-Study
              Guides for new investigators covers the basic principles necessary to
              understand the establishment and operation of employee benefit
              plans and/or the fiduciary responsibility provisions of ERISA; (2) the
              first part of the Basic Training Course provides comprehensive
              information on ERISA provisions for which PWBA has primary
              enforcement responsibility and reinforces the concepts introduced in
              the self-study guides; (3) on-the-job training provides meaningful
              opportunities for learning the ERISA regulations; and (4) the Financial
              Institutions course provides training on federal regulations of banks
              and investment advisers, in addition to a variety of other topics.

              In our interviews with GS-12 investigators and GS-13 senior
              investigators, we learned that training in the area of related federal
              regulations (such as the IRS code) is provided on a very limited
              basis, if at all.




       (2)    Training in the areas of auditing practices and principles, and skill in
              conducting financial analyses sufficient to reconstruct transactions
              and identify fiduciary breaches, is addressed primarily in the




                                      12
              Employee Benefit Plan Accounting course for those staff members
              who do not have an educational background in accounting.

       (3)    Training on how to plan, organize and conduct an investigation or
              examination is covered primarily in the second part of the Basic
              Training course that provides an introduction to the skills and
              techniques utilized by PWBA investigators. Training on investigative
              techniques in a variety of areas, (i.e., investment management issues,
              real estate investments, cash management,
               ESOPS, and conflicts of interest), is provided in the Financial
              Institutions course. More specialized training, geared primarily
              towards criminal casework, is provided through PWBA’s Criminal
              Enforcement course and various courses at FLETC.

              On-the-job training, particularly mentoring for new employees, is
              essential to this KSA. Interviewees reported that forms of mentoring
              vary within regions, from very informal to very structured.
              The ability to work effectively with persons of diverse backgrounds
              and with potentially conflicting interests is learned primarily through
              on-the-job training, working on a variety of cases. Training on how to
              conduct interviews is provided in Basic Training, although
              interviewees report the training is limited in nature. More in-depth
              training in the area of advanced interviewing techniques is included
              on the agenda of PWBA’s Criminal Enforcement course, and is also
              taught FLETC.

In our evaluation of the work performed versus training provided we also reviewed
the related performance standards for investigators and auditors. The critical
elements for both investigators and auditors are: Investigative Productivity, Quality
of Investigations, Timeliness, and Team Coordinator (Senior Investigator only). The
only non-critical element is “Customer Service.” Each of these elements is clearly
contained within the knowledges, skills and abilities discussed above. Therefore,
we did not conduct additional analysis, associating the standards with specific
training activities.



Training Programs

PWBA acknowledges its responsibility to address a variety of training initiatives to




                                      13
provide and maintain a level of proficiency for its investigators and auditors. A
National Training Coordinator is in PWBA’s Office of Program Planning,
Evaluation, and Management, with primary responsibility for identifying the overall
training needs of the agency. The agency’s training commitment consists of four
major components: (1) training courses developed by the agency;
(2) programs of continuing education; (3) on-the-job training; and (4) individual
development opportunities.

Training Courses Developed by the Agency

The training courses developed and sponsored by PWBA are:

(1)    Self-Study Guides: this initial teaching vehicle for new investigators is a
       two part self-paced training program covering the basic principles necessary
       to understand the establishment and operation of employee benefit plans
       and/or the fiduciary responsibility provisions of ERISA. It is normally
       completed within 120 days of hire as an investigator.

       •      Interview Results: Interviews with a total of 70 investigators revealed
              the following: some regions require that investigators who are
              untrained in ERISA law use the guides, while others use them
              occasionally or not at all (12 (17%) of the investigators reported the
              guides were not part of their training at all; two interviewees could not
              recall using the guides). Of the remaining 56 investigators who had
              utilized the guides, 10 (18%) found them helpful to their training
              experience, 22 (39%) offered no opinion regarding usefulness of the
              guides, and 24 (43%) offered a wide range of criticism regarding the
              guides (i.e. the guides are helpful only when used in conjunction with
              relevant team case work; the guides are very outdated–they should
              be updated on a regular basis).

              Note: We learned through discussion with PWBA headquarters’
              management that the self-study course is in the process of being
              updated. The first volume of the course is being updated by the
              Wharton School of the University of Pennsylvania, and should be
              completed no later than the third quarter of FY 2000. The second
              volume (Introduction to Title 1) is being updated in-house and should
              be available by the end of FY 2000.

(2)    Basic Training Course: this formal classroom presentation consists of two




                                      14
      parts and is a required course for all investigators. It is normally taken
      between 120 days and six months from the date of hire. However, the
      course is only offered once or twice each year; supervisors must determine
      when it seems best to send a new investigator (i.e., with less than six months
      experience, or to wait for a year). The first part provides comprehensive
      information on those provisions of ERISA for which PWBA has primary
      enforcement responsibility. This portion of the course is designed to
      reinforce the concepts introduced in the self-study guides. The second part
      provides an introduction to the skills and techniques utilized by PWBA
      investigators. Employees are scheduled for this three week training
      program by their supervisors, normally during the first year of employment.

      •      Interview Results: Interviews with PWBA investigators elicited
             general positive support for this class (of the 70 investigators
             interviewed, 5 (7%) had not taken the class, 23 (33%) offered no
             opinion on the class, and the remaining 42 (60%) interviewees
             provided opinions). Of the 42 interviewees providing comments, 38
             (90%) found the course helpful, while 4 (10%) did not find it helpful to
             their case work. Many interviewees stated it was an excellent “hands-
             on” class with a substantial amount of practical information. The
             following concerns were shared: (1) the length of the class is too
             long–three weeks (14 of the 42 (33%) stated this); (2) there is too
             much information provided in the class–“information overload” (11 of
             the 42 (26%)); (3) too many speakers just read from prepared notes
             (8 of the 42 (19%)); and (4) a new investigator needs a frame of
             reference before taking the class–the class should be scheduled only
             after several months of on-the-job training (18 of the 42 (43%)).
             Investigators in the GS-12 and GS-13 levels expressed a need for a
             refresher class, emphasizing that the industry is not a static one, and
             periodic updates on advanced employee benefit plan accounting and
             criminal investigation techniques are needed (18 of 44 (41%) of the
             interviewees.

(3)   Financial Institutions: this required classroom training, normally taken
      about eighteen months after hire, is designed to provide: (1) an
      understanding of the structure and operation of institutional investment
      managers; (2) an awareness of the non-ERISA regulatory environment in
      which such entities operate; (3) an in-depth understanding of the ERISA
      regulatory framework within which such institutions provide investment
      management services to employee benefit plans; and (4) techniques




                                     15
       which are useful in conducting an investigation pursuant to the
enforcement strategy.

       •      Interview Results: We heard the most consistent negative comments
              regarding this class (29 of 52 (56%) of those who took the class and
              offered an opinion). Many interviewees stated there is limited
              practical application of the information, and the course would be more
              helpful to investigators if it was scheduled after three or more years
              on the job.

(4)    Employee Benefit Plan Accounting: this classroom training, normally
       taken in the employee’s second year, is intended primarily for newly hired
       investigators who do not have a substantial accounting background. It is
       designed to provide: (1) an introduction to the accounting principles utilized
       in the development and maintenance of those books and records generally
       utilized in the administration of employee benefit pension and welfare plans;
       (2) an understanding of the audit process and the role of an independent
       public accountant; and (3) techniques which are useful in conducting an
       investigation utilizing plan financial records.

       •      Interview Results: Interviews with investigators generally elicited
              positive comments from those who had taken the class. Some
              suggested that employees should be given the option of taking the
              class, including those with an accounting background (13% of those
              making comments–7 of 52 interviewees). This is because some
              undergraduate courses do not include work on financial statements,
              which is needed to conduct a PWBA investigation. Many of the GS-
              12 and 13 investigators (18 of 44 (41%)) investigators requested a
              refresher class in this area (previously referenced under the Basic
              Training Course).

(5)    Criminal Enforcement: this is the third required training program for all
       investigators, and is normally taken within the first two to three years of
       hire. It was developed to focus investigative skills of employees to the
       issues and considerations unique to the process of conducting criminal
       investigations. It is designed to: (1) focus on the specific criminal provisions
       of both ERISA and Title 18 of the U.S. Code which relate to employee
       benefit plans, by discussing their requisite elements of proof; and (2) provide
       an in-depth awareness of criminal investigative procedures, relevant case
       law, and the federal criminal law procedural




                                      16
      process. In conjunction with training on criminal enforcement, PWBA has
      developed a comprehensive criminal prosecution guide. National Office
      representatives report that the course is updated annually, and that two to
      three regional criminal coordinators participate in both the updating and
      instruction of the course each year.

      •      Interview Results: Interviews with PWBA investigators elicited praise
             for this course overall. The curriculum addresses the needs of
             investigators when conducting a criminal investigation, and is
             generally presented as “good, hands-on, practical information.”

             However, there were some common complaints voiced during the
             interviews: (1) some senior investigators had not been scheduled for
             the class prior to receiving criminal case assignments, (of the 15 Sr.
             Investigators interviewed, 3 stated they have not had the class, 1
             complained of needing the class earlier, and 2 complained of waiting
             approximately 5 years before being scheduled for the class). They
             did not feel adequately prepared to handle the criminal work. (2)
             several GS-12 and GS-13 employees (17 of the 45 who offered
             comments on the subject) expressed a need for a refresher class on
             criminal investigations, including more training in procedures (i.e.
             level of evidence, subpoenas, etc.); (3) the National Criminal
             Coordinator should communicate more with the regional criminal
             coordinators for employee input when updating the course annually
             (10 of the 45 GS-12/GS-13 employees interviewed, including two
             criminal coordinators, expressed this concern).

(6)   Training by the Office of Enforcement

      The PWBA headquarters Office of Enforcement provides annual training to
      investigators on topical issues of interest. For example, the FY 1999 topic
      for annual training was health care issues.




      •      Interview Results: A total of 65 interviewees responded to OE- related
             training. Forty-three interviewees had no opinion regarding the
             usefulness of the training. Of the remaining 22, there were 4
             employees who found the information helpful. Of the 22 offering




                                    17
             opinions, 8 complained that while headquarters will request input
             from the field, it is frequently not considered when topics are
             selected. Eleven of the GS-12 and GS-13 interviewees also
             suggested that the instructors who provide this annual training spend
             time intermittently in the field to obtain more hands-on knowledge of
             the types of information needed by field investigators.

              We found the headquarters Office of Enforcement does request input
             from the regions in the form of a “Program Evaluation,” which
             employees are asked to complete following each annual OE training
             class. The evaluation addresses the following areas:
             (1) positive aspects of the training; (2) negative aspects of the
             training; (3) suggestions for what things should be done differently,
             and what should remain the same; and (4) request for topics to be
             covered in the annual training the following year.

Programs of Continuing Education

(1)   More advanced training is offered as an option for investigators, particularly
      those who conduct criminal investigations, at FLETC. Availability is limited
      to a relatively small number of slots for PWBA annually. The National
      Training Coordinator works with the regional offices in scheduling
      employees for this training. The PWBA FY 2000 training projections for
      FLETC shows the following courses available to PWBA investigators, with
      the number of PWBA slots requested of FLETC for each course. The
      National Office reports that while PWBA requests this number of slots each
      year, historically they have never received the full complement of the slots
      requested. The National office also reported that the agency has not been
      permitted to send anyone to the Law Enforcement Advanced Interviewing
      course for the last three years, because no slots were made available to
      PWBA:



             Criminal Investigations in an Automated Environment – 5
             Financial Forensics Techniques – 10
             Health Care Fraud Investigation – 15
             Law Enforcement Advanced Interviewing – 5
             White Collar Crimes – 15




                                     18
•   Interview Results: A majority of interviewees (55% of those offering
    opinions who had taken FLETC classes (15 of 27)) stated that most
    PWBA in-house training programs were equal to or substantially
    better than those offered at FLETC. Their opinion was that much of
    the material was deemed not relevant, or not easily applicable to,
    PWBA investigations. Employees who had taken the Law
    Enforcement Advanced Interviewing (formerly called Advanced
    Interviewing) course deemed it to be extremely useful in general
    investigative work. Suggestions were made to incorporate some of
    the advanced interviewing techniques into one of the PWBA in-house
    courses (Basic Training, Criminal Enforcement Training). Employees
    noted, in particular, the need to provide training on: (1) how to act in a
    confrontational situation; (2) how to negotiate in a non-hostile manner;
    and (3) how to obtain cooperation during the investigation process.
    (Note: while these topics are listed in the PWBA Criminal
    Enforcement course agenda, interviewees in the GS-12/GS-13 levels
    consider this a weak area of training for the agency, and emphasized
    the need for developing stronger interviewing skills among the
    investigators (42%, or 19 of the 45 in these levels.)

    Several employees (31% (14 of 45)) of the GS-12/GS-13
    interviewees complained about the lack of advance notice for FLETC
    classes. PWBA management explained that FLETC frequently
    notifies the agency of class availability on short notice. This is
    because FLETC caters to the training of Federal law enforcement
    personnel, primarily Criminal Investigators (GS-1811s). Therefore,
    PWBA is considered a secondary agency, and receives notification
    of class availability after the primary agencies have completed their
    scheduling.

    We have determined that while the slots are allocated among the
    regional offices as they become available, each regional office
    should maintain a roster of individuals that can best make use of the
    various FLETC courses offered. As slots are then made available to
    the regional office, the appropriate candidate could promptly be
    selected to attend the course offered.




                            19
(2)   PWBA also sponsors participation in the Certified Employee Benefit
      Specialist (CEBS) training program, developed by the Wharton School of
      the University of Pennsylvania. The program is voluntary, and consists of the
      ten college level courses listed below. To become a Certified Employee
      Benefit Specialist, a participant must successfully complete all ten
      examinations.

       The programs are computer-based, which provides flexibility for the PWBA
       employee. The courses have been approved in many states as continuing
       professional education credit. Most graduates of the program join the
       International Society of Certified Employee Benefit Specialists (ISCEBS),
       which provides continuing education
       opportunities.
                                                                     CEBS COURSES

       •      Interview Results: Through our              Course 1 – Employee Benefits:
              interviews, we learned that employee        Concepts and Health Care
                                                          Benefits
              participation in the CEBS program           Course 2 – Employee Benefits:
              varied greatly. Some employees had          Design, Administration and Other
              completed the program (9 of 70              Welfare Benefits
                                                          Course 3 – Retirement Plans:
              interviewees (13%)) and felt it was         Basic Features and Defined
              generally applicable to PWBA work,          Contribution Approaches
              while others had taken one or more          Course 4 – Retirement Plans:
                                                          Defined Benefit Approaches and
              classes (33 of 70 interviewees (47%)).      Plan Administration
              Some employees stated they started          Course 5 – Contemporary Legal
              but did not complete the curriculum         Environment of Employee Benefit
                                                          Plans
              because they judged the courses as          Course 6 – Financial Concepts
              irrelevant to their investigative work (7   and Practices
              of the 33 (21%)) who had taken one or       Course 7 – Asset Management
                                                          Course 8 – Human Resources and
              more classes, but did not complete the      Compensation Management
              series). We determined that the             Course 9 – Health Economics
              CEBS program is an excellent training
              tool for those employees who do not
              have an employee benefits
              background. PWBA encourages participation in the program and
              pays associated financial costs for the program.


On-the-Job Training and Individual Development

In addition to formal training programs, PWBA provides a variety of on-the-job and




                                        20
individual development opportunities for investigators.

Regional and district offices bear primary responsibility for such development of
their employees. To supplement the agency-sponsored training courses,
supervisors annually assess the training needs of their respective staff. Regions
have their own training budgets and the authority to decide on additional individual
development training for employees, including courses that provide credits for CPA
certification. Approval to attend a specific course normally depends on budgetary
constraints. If adequate budget is available and a requested course is relevant to
PWBA work, the course is normally approved.

       •      Interview Results: All Regions conduct quarterly continuing education
              programs, wherein topical issues affecting the agency are discussed.
              These types of meetings may range from formal instructional
              presentations to ad hoc group discussions designed to
              explore issues of common interest. Outside presenters are invited
              periodically to provide more in-depth information on topics of interest.

              During our interviews, we learned that PWBA’s on-the-job training,
              particularly for new investigators, varies substantially among regional
              offices. Interviewees from the district and regional offices in Chicago,
              New York, Atlanta, Kansas City, and Boston reported some form of
              structured or formalized training/mentoring for new investigators.
              Employees interviewed from the Philadelphia, Los Angeles, San
              Francisco, Cincinnati and Dallas regions expressed a need for a
              more formalized approach to training/mentoring new investigators.
              Requests were made for a more structured approach to training new
              employees, including assignment of a mentor, or coach, to guide new
              investigators through each phase of an investigation.

              We want to highlight the efforts made in the Chicago region with
              regard to new employee training and mentoring. In February, 1997,
              the Chicago Regional Office (CRO) started a formalized intra-office
              training program for new hires. The program consists of
              presentations by senior office staff, as well as training modules.
              Chicago also incorporated the PWBA Self Study Guides into their
              program. New employees prepare four self-study assignments
              weekly and meet with supervisors to discuss the assignments.
              Ideally, a new employee will complete the designated training topics
              and self-study in their first six weeks with the CRO.




                                      21
                     After completing six weeks of training, the employee is paired with a
                     senior investigator/auditor as part of CRO’s coaching program. The
                     coaches are primarily responsible for individual on-the-job training.
                     After completing the structured “coaching” program, the coach then
                     serves as a consultant for the new hire for approximately four to six
                     months.

                     The coaching and training manuals were developed in the region.
                     CRO designated a coaching coordinator, (not a full-time position;
                     handled by a GS-13 Investigator), to oversee the program. The
                     region has proposed placing its six week training program online.


Conclusions

Based on the PWBA’s FY 1998 and 1999 performance goals and results, our evaluation
of the effectiveness of PWBA’s enforcement program shows the enforcement program is
effective.

Overall, we concluded that PWBA’s training initiatives to provide and maintain a level of
proficiency for its investigators and auditors are appropriate for the enforcement of ERISA.


Recommendations

We recommend the Assistant Secretary for Pension and Welfare Benefits strengthen the
agency’s training initiatives for investigators by taking the following actions.

I.     Recommendation: Ensure that new employee training/mentoring programs are
       available for new investigators and auditors in each of the ten Regions. Complete
       the updating of the Self Study Guides, and incorporate them into the
       training/mentoring programs by the end of FY 2000.


       (A) PWBA’s response to ensure that “new employee” training/mentoring
       programs be made available to new investigators and auditors in each of
       the ten regions.

       “We agree that “new employee” training/mentoring programs are appropriate for each




                                             22
regional office in the PWBA structure. PWBA has encouraged the development of such
training programs in each region. To assist in addressing this goal, the materials
developed by our Chicago region have been shared with all of the other Regional
Directors; as acknowledged in the draft report, some of the other regions have also
developed their own orientation programs for new employees. The executive
management of PWBA has deferred to the regions the responsibility to develop the
specifics of their respective programs. This approach is based on the belief that each
region should determine how best to address the selection and training of its
investigators and auditors. We will however, direct our Regional Leadership Team (a
standing committee of all of the Regional Directors) to develop by July 31, 2000, a
framework of minimally required areas to be incorporated in each region’s “new
employee” training/mentoring program. When completed, we anticipate that all regions
which do not already have such a program, will move aggressively to develop their
respective new employee training/mentoring programs by the end of FY 2000.”

(B) PWBA’s response to complete the updating of the Self Study Guides and
incorporate them into the mentoring program by the end of FY 2000 .

“...there have been numerous changes with respect to the materials covered in Volume I
which deals with plan qualification, investment options and welfare arrangements.
However, the second volume of this series deals primarily with the fiduciary provisions of
Title I of ERISA where the changes over the past 10 years should be characterized as
“minor.” We are currently working with Dr. Jerry Rosenbloom of the Wharton School of
Business at the University of Pennsylvania (and Academic Director of the CEBS training
program) to update the first volume of our Self Study Guide. We anticipate a revised
version before the end of this fiscal year. The second volume was prepared in-house.
PWBA’s Office of Regulations and Interpretations staff will [review] this volume, as
needed. We would anticipate having these materials reviewed before the end of the
fiscal year. We agree that the use of the Self Study guide in conjunction with on-the-job
exposure is the most appropriate use of these materials.”

OIG’s Conclusion on Recommendation Number One:

(A) We concur with the corrective actions and consider this aspect of the
recommendation to be resolved. The recommendation will be closed pending our receipt
of documentation of the development and implementation of new employee
training/mentoring programs in each region of PWBA by the close of FY2000.
Documentation should be provided to this office by January 15, 2001.


(B) We concur with the corrective actions and will consider this aspect of the
recommendation to be resolved. The recommendation will be closed pending our receipt
of documentation of the updating of both volumes of the Self-Study Guides by close of
FY2000. Documentation should be provided to this office by January 15, 2001.




                                       23
II.    Recommendation: Conduct an individual employee survey of the training needs
       of investigators and auditors during FY 2000. The survey should minimally address
       these training needs and topics: (1) a refresher course for GS-12/GS-13
       investigators, including updated information on criminal techniques and employee
       benefit plan accounting; (2) more advanced interviewing techniques, incorporated
       into one of the existing internal training classes; (3) advanced computer training; (4)
       training on other federal regulations, such as the IRS code; and (5) writing skills.

       PWBA’s response to conduct an individual employee survey of the training
       needs of investigators and auditors in FY 2000.

       “...In response to the OIG recommendation, PWBA will designate a working group to
       identify options of how best to design and conduct an employee needs survey. We may
       seek to use the technical assessment services of an outside contractor to refine the
       assessment vehicle. To ensure meaningful responses to such survey, we would
       anticipate that development will require several months and that the survey would not be
       distributed until late FY 2000 or early in FY 2001.”

       OIG’s Conclusion on Recommendation Number Two:

       We concur with the corrective actions and will consider this recommendation to be
       resolved. The recommendation will be closed pending our receipt of documentation of
       the development, distribution and assessment of results of the survey by the end of the
       first quarter of FY2001. Documentation should be provided to this office by January 15,
       2001, including survey results.

III.   Recommendation: Following PWBA’s review and analysis of the results of the
       individual employee survey described above, training needs should be prioritized in
       order of their importance. The agency should address the development and
       implementation of such training needs in the FY 2001 Program Operating Plan.




       PWBA’s response regarding the development and implementation of
training needs identified through the survey.

       “As noted in our response to the above recommendation, we have committed to design
       and conduct an all employee training needs assessment. Until we have a schedule for
       the delivery of the needs assessment, we are not in a position to provide an




                                              24
      implementation time line. However, once we have had the opportunity to evaluate the
      responses to that survey, we will proceed to design a plan for implementing those
      recommendations as appropriate.

      It is important to note, however, that given the considerable amount of time it takes to
      develop a course, and the limited personnel resources available to design and teach
      Agency-sponsored training, we must limit Agency-level courses to broad subject areas.
      Accordingly, we have elected to address the narrower, more specific subject areas
      through the use of the OE annual update training vehicle and/or regional quarterly
      continuing professional training sessions. As your report noted, these training programs
      are used to handle those subjects identified within each region as relevant to regional
      initiatives and investigations, e.g., several regions have recently conducted or are about
      to conduct training on bankruptcy procedures. If regional management believed a topic,
      such as those you have identified, was needed in their region, a locally-designed training
      module could be and often has been developed and delivered. Individual employee skill
      training should be discussed at the regional office-level with immediate supervisors; such
      needs usually can best be met through on-the-job training or the use of an outside
      training source.”

      OIG’s Conclusion on Recommendation Number Three:

      We concur with the corrective actions and will consider this recommendation to be
      resolved. The recommendation will be closed pending our receipt of information
      regarding the agency’s plan for addressing training needs identified through the employee
      survey. Information on the design and implementation of identified training needs should
      be submitted to this office by April 15, 2001.

IV.   Recommendation: The agency should review its Financial Institutions class for its
      applicability to case work, timing of scheduling of employees for the class, and
      content.

      PWBA’s response regarding the need to review the Financial Institutions
      class.

      “...PWBA management will, however, undertake a thorough review of the continued
      appropriateness of this course, the timing for attendance at the course and whether the

      current course agenda should be modified. This review will occur in the 4th quarter of this
      fiscal year with decisions to be made regarding the course early in FY 2001.”

      OIG’s Conclusion on Recommendation Number Four:

      We concur with the corrective actions and will consider this recommendation to be




                                              25
       resolved. The recommendation will be closed pending our receipt of information
       regarding the agency’s results of their review of the subject class. Documentation
       should be submitted to this office by January 15, 2001.

V.     Recommendation: Each regional office should maintain a roster of individuals
       that can best make use of the various FLETC courses offered during the fiscal year.
       As slots are then made available to the regional offices, the appropriate candidates
       could promptly be selected to attend the course offered.

       PWBA’s response regarding maintenance of a roster of individuals for
       future FLETC courses.

       “...We attempt to make decisions about internal allocations quickly; however, the notice
       time to field offices is often short. Therefore, if regional offices maintained a readily
       available listing of employees whom they would like to receive training, they would be in a
       position to immediately provide nominees for slots as they are allocated. This would
       permit a timely response to the National Training Coordinator and provide additional
       advance notice to those employees designated for training. While field offices have
       generally been quite responsive to notification regarding the availability of FLETC slots,
       maintaining lists of employees identified for training can only serve to further expedite the
       nomination process. This recommendation will be adopted immediately.”

       OIG’s Conclusion on Recommendation Number Five:

       We concur with this corrective action and consider this recommendation resolved and
       closed.


Contributors to this report:

Barbara Farrell, Project Leader
Beth McNeill
Dennis Raymond

Amy C. Friedlander, Director, Division of Evaluations and Inspections




                                                26
